No.

GOLD VALUE INTERNATIONAL TEXTILE, INC., DBA FIESTA FABRIC, A
CALIFORNIA CORPORATION,
Applicant,
v.
SANCTUARY CLOTHING, LLC, A CALIFORNIA LIMITED LIABILITY COMPANY;
AMAZON.COM, INC., A WASHINGTON CORPORATION; MACY’S, INC., AN OHIO
CORPORATION; NORDSTROM, INC., A WASHINGTON CORPORATION;
BLOOMINGDALES, INC., A NEW YORK CORPORATION; DILLARDS, INC., AN
ARKANSAS CORPORATION; ZAPPOS IP, INC., A NEVADA CORPORATION; DOES, 1–10,
Respondents.

CERTIFICATE OF SERVICE

DONIGER / BURROUGHS
FRANK GREGORY CASELLA
Counsel of Record
SCOTT ALAN BURROUGHS
TREVOR W. BARRETT
603 Rose Avenue
Venice, California 90291
Phone: 310-590-1820
Email: fcasella@donigerlawfirm.com
Email: scott@donigerlawfirm.com
Email: tbarrett@donigerlawfirm.com
Counsel for Applicant GOLD VALUE
INTERNATIONAL TEXTILE,
INC. DBA Fiesta Fabric

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Rules of the Supreme Court of the United States,
I hereby certify that all parties required to be served have been served. On October
17, 2019, I caused a copy the Application for Extension of Time to File Petition for
Writ of Certiorari to be served via third-party commercial carrier for overnight
delivery, with all fees thereon prepaid, and via electronic mail on the following
parties:
Jessica Strom Rutherford
Email: jrutherford@24iplg.com
Alexander Malbin
Email: amalbin@24iplg.com
Ferdinand IP, LLC
450 7th Avenue
Suite 1300
New York, NY 10123
Edmund J. Ferdinand III (via email only)
Email: jferdinand@24iplg.com
Ferdinand IP, LLC
129 Post Road East
Westport, CT 06880
Attorneys for Defendant-Respondents
Dated: October 17, 2019

DONIGER/BURROUGHS
By:

~NKGREGORYCASELL

-

Counsel of Record
SCOTT ALAN BURROUGHS
TREVOR W. BARRETT
603 Rose Avenue
Venice, California 90291
Phone: 310-590-1820
Email: fcasella@donigerlawfirm.com
Email: scott@donigerlawfirm.com
Email: tbarrett@donigerlawfirm.com
Counsel for Applicant GOLD VALUE
INTERNATIONAL TEXTILE, INC. dba
Fiesta Fabric

